HHS/OIG, Audit - "Review of State Claims for the Costs of Family Planning
Services Provided Through Medicaid Managed Care Programs," (A-03-06-00200)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of State Claims for the Costs of Family Planning Services Provided Through
Medicaid Managed Care Programs," (A-03-06-00200)
May 29, 2007
Complete
Text of Report is available in PDF format (522 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were
to (1) consolidate the results of our audits of seven States methodologies for
claiming the costs of family planning services provided through Medicaid managed
care programs and (2) assess the adequacy of CMSs guidance and practices
relative to determining such costs.
Six of the seven States we reviewed inflated the factors or rates used to claim
reimbursement for family planning costs at the enhanced 90-percent rate or did
not provide documentation to support their calculations as required.  As a
result, for $302,902,257 in claims reviewed (Federal share), these States
claimed unallowable costs totaling $21,749,383 (Federal share).  We recommended
that CMS: (1) issue specific guidance to State agencies, consistent with current
Medicaid regulations, to quantify a reasonable portion of the capitation
payments attributable to family planning services; (2) establish controls in its
review process to ensure that the data States use to quantify family planning
costs conform to the proposed methodologies for claiming the enhanced family
planning rate; and (3) specify retention requirements for base-year data.  CMS
agreed with our first and third recommendations.  We clarified our second
recommendation to express our original intent more clearly.